U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Impax Laboratories, Inc. v. Federal Trade Commission
S.Ct. No. 21-406
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
10, 2021, and placed on the docket on September 15, 2021. The government’s response is due
on October 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0406
IMPAX LABORATORIES, INC.
FEDERAL TRADE COMMISSION

BRIAN T. BURGESS
GOODWIN PROCTOER LLP
1900 N STREET, NW
WASHINGTON, DC 20036
202-346-4215
BBURGESS@GOODWINLAW.COM
202-204-7265(Fax)
JAY PHILIP LEFKOWITZ
KIRKLAND & ELLIS LLP
601 LEXINGTON AVE.
NEW YORK, NY 10022
212-446-4800
LEFKOWITZ@KIRKLAND.COM
MATTHEW D. ROWEN
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000

